PROOF OF SERVICE: DECLARATION UNDER 28 U.S.C. § 1746

Under 28 U.S.C. § 1746 and Supreme Court Rule 29.5(c), Alex G. Leone states that the following
is true and correct:
1. I am the applicant in the enclosed Emergency Application with Appendix addressed to
Justice Alito and dated September 29, 2021.
2. Counsel of record to all respondents in this matter is Kathleen Barnett Einhorn of Genova
Burns LLC: Ms. Kathleen Barnett Einhorn represents Essex County Prosecutor’s Office,
Theodore Stephens II, Romesh Sukhdeo, Gwendolyn Williams, and Roger Imhof in the
District Court litigation numbered 2:21-cv-12786-SDW-ESK in the District of New Jersey
and the Court of Appeals litigation numbered 21-2684 in the Court of Appeals for the Third
Circuit.
3. On September 29, 2021, I personally provided a copy of the enclosed Application with
Appendix to Winona Wilson, Legal Assistant, employed by Genova Burns LLC, at the
office of counsel of record, Ms. Kathleen Barnett Einhorn. The address of the office of
Ms. Kathleen Barnett Einhorn is 494 Broad Street in Newark, New Jersey 07102, and her
phone number is (973) 535-7115. See Supreme Court Rule 29.3.
4. Ms. Winona Wilson confirmed that she would provide the Application with Appendix to
Ms. Kathleen Barnett Einhorn, and this was further confirmed with the Office Manager,
Candy. The Application with Appendix was also sent to Ms. Kathleen Barnett Einhorn in
an email on September 29, 2021, in which the above information was also provided.
5. Accordingly, all parties required to be served have been served. See Supreme Court Rule
29.5
1 declare under penalty of perjury, under the laws of the United States and the State of New Jersey,
that the foregoing is true and correct.

Executed on: September 29, 2021
By: /s/Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu
(973) 327-3970

rj
Clerk’s Office
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Emergency Application to Justice Alito
Dear Clerk,
Enclosed, please find an emergency application with appendix addressed to Justice Alito
and dated September 29, 2021. See Supreme Court Rule 22. An original copy of these documents
and two additional copies are included, as well as three copies of proof of service. See Supreme
Court Rule 29.5(c). I have confirmed with Ms. Silver that there is no filing fee for this application.
This matter is listed under number 21-2684 in the Court of Appeals for the Third Circuit
and number 2:21 -cv-12786-SDW-ESK in the District Court for the District of New Jersey. Please
let me know if I can be of assistance by providing any additional information.
Thank you for your time!

Dated: September 29,2021

Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6Jaw.harvard.edu
(973) 327-3970

OCT - 5 2021

